   August 25, 2004




Cooperative
Threat Reduction

Contracts Awarded by the Defense
Threat Reduction Agency In Support
of the Cooperative Threat Reduction
Program
(D-2004-111)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  +Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CTR                  Cooperative Threat Reduction
DTRA                 Defense Threat Reduction Agency
GAO                  Government Accountability Office
FAR                  Federal Acquisition Regulation
ID/IQ                Indefinite Delivery/Indefinite Quantity
IPT                  Integrated Product Team
WMD                  Weapons of Mass Destruction
                            INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON. VIRGINIA 22202-4704




                                                                         August 25,2004


MEMORANDUM FOR DIRECTOR, DEFENSE THREAT REDUCTION AGENCY
SUBJECT: Report on Contracts Awarded by the Defense Threat Reduction Agency in
         Support of the Cooperative Threat Reduction Program (Report
         NO.D-2004-111)

       We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report. The
Defense Threat Reduction Agency
                             - - comments conformed to the requirements
                                                                 -           of DoD
Directive 7650.3, additional comments are not required.
        We appreciate the courtesies extended to the staff. Questions should be directed
to either Mr. Timothy E. Moore at (703) 604-9282 @SN 664-9282) or
Mr. Terry L. McKinney at (703) 604-9288 (DSN 664-9288). See Appendix D for the
report distribution. The team members are listed inside the back cover.


                              By direction of the Deputy Inspector General for Auditing:



                                         David K. Steensma
                                      Assistant Inspector General
                                      for Contract Management
              Office of the Inspector General of the Department of Defense
Report No. D-2004-111                                                                      August 25, 2004
      (Project No. D2003CF-0183)

          Contracts Awarded by the Defense Threat Reduction Agency
           in Support of the Cooperative Threat Reduction Program

                                          Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
contracting officials, program managers, and budgeting officials that work together to
plan, award, administer, and fund task orders awarded through multiple contracts. This
report addresses the significance of providing fair opportunity to all contractors involved
in a multiple-award contract and the importance of Agency-wide directives to create
internal controls for managing the award of task orders under multiple-award contracts.

Background. Congress established the Cooperative Threat Reduction Program in
December 1991 to assist the countries of the former Soviet Union in destroying and
reducing the proliferation of nuclear, chemical, and biological weapons of mass
destruction. In September 2001, to accomplish the Cooperative Threat Reduction
Program goals, the Defense Threat Reduction Agency (DTRA) awarded five contracts to
five different contractors under a multiple-award solicitation. The total estimated dollar
value of the five Cooperative Threat Reduction integrating contracts was $5 billion. In
FYs 2002 and 2003, DTRA awarded 32 task orders under the integrating contracts worth
approximately $415.8 million. These task orders required such tasks as building or
improvement of transportation infrastructure including roads and railbeds, the
construction of buildings, the destruction of weapons, and the clean up of the destruction
site.

Results. DTRA has used the multiple-award process to efficiently streamline
Cooperative Threat Reduction Program procurements. The Federal Acquisition
Regulation requires that when multiple award orders are awarded, contracting officials
must give each contractor a fair opportunity to be considered for each order or cite an
exception to fair opportunity. On three task orders for subsequent phases of multiphased
requirements, DTRA used a contractor down-select process∗ that did not provide each
contractor supporting the Cooperative Threat Reduction Program fair opportunity to be
considered for the task orders and did not cite an exception to the fair opportunity
requirement. Using these procedures, DTRA awarded orders valued at over $78 million
without providing fair opportunity or citing an exception. The task orders represented
subsequent phases of three projects with a combined value over $262 million. As a
result, the task orders may not have been awarded to the best value contractor and
continued use of the process will result in more awards without the benefits of
∗
    The down-select process is a process in which the program office evaluates all the estimated costs and
    summary work plans submitted by multiple contractors that outline the concept and approach to satisfy
    the technical and performance requirements of the Government for a task order. Based on criteria that
    was provided to the contractors, the program office then selects one contractor to receive the task order.
    The down-selected contractor must submit a full technical and cost proposal.
competition. In addition, DTRA included a 5-year award-term incentive in the
Cooperative Threat Reduction multiple-award contracts, creating a probable 10-year
period of performance. Although the 5-year award-term is allowed by the Federal
Acquisition Regulation, the five current contractors supporting the Cooperative Threat
Reduction Program will be the only integrating contractors working on the Cooperative
Threat Reduction Program until year 2011. The Cooperative Threat Reduction program
is expected to last until 2016 and 55 contractors had expressed interest in the program
prior to the award of the current integrating contracts. The result of the multiphase
project contractor selection procedures and the 5-year award term incentive is the
creation of a limited competition environment where the current contractors supporting
the Cooperative Threat Reduction Program will obtain such a competitive advantage that
other contractors will be unable to compete for future contracts. (Finding A)

With the exception of providing fair opportunity on multiphase requirements, DTRA
generally complied with applicable laws and regulations when awarding contract task
orders under the Cooperative Threat Reduction integrating contracts. Although the
contracting process was well documented in procurement negotiation memorandums,
poor management controls on contract documentation that cut across DTRA directorates
resulted in data and documentation discrepancies for 26 of 32 contract actions reviewed.
Specifically, of the 32 contract task orders reviewed we found 2 contained incorrect
accounting and appropriation data; 11 contained incomplete technical evaluations
regarding contractor proposed labor hours; 4 contained incomplete documentation
regarding subcontractor costs, indirect rates, or other direct costs; and 20 lacked
justification for the type of contract used. (Finding B)

The Director, DTRA should implement policy that mandates that contracting officials
either provide fair opportunity or document the rationale for an exception for each task
order awarded; ensure that future contract performance periods do not restrict
competition; and finalize the Cooperative Threat Reduction Integrating Contract Business
Processes and Associated Responsibilities guidance document to make certain that
multiple-award contract documentation contains data and justification that comply with
the guidance when making contracting decisions. See the findings for the detailed
recommendations.

We reviewed the management control program as it related to the task orders awarded
under the Cooperative Threat Reduction integrating contracts in support of the
Cooperative Threat Reduction Program. Management controls did not ensure that
contractors were provided a fair opportunity on multiphase tasks and that the accounting
and appropriation data were correct.

Management Comments. The Acting Director, Defense Threat Reduction Agency
concurred with the recommendations and initiated corrective actions; therefore no further
comments are required. The acting director agreed to compete future task orders or
document the rationale for a fair opportunity exception if the task orders are not
competed. In addition, the acting director agreed to direct more attention towards
improving documentation that would assist in avoiding erroneous accounting and
appropriation data on contract actions; and to ensure that negotiated labor hours,
subcontractor pricing, indirect rates, and other direct cost be fully supported and
explained. Finally, the acting director concurred with the need to document the
justification for contract type selection. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.



                                            ii
Table of Contents

Executive Summary                                i

Background                                       1

Objectives                                       2

Findings
     A. Competition of Task Orders               3
     B. Contract Documentation                  12

Appendixes
     A. Scope and Methodology                   18
          Management Control Program Review     19
     B. Prior Coverage                          20
     C. Contract Task Order Problems            22
     D. Report Distribution                     24

Management Comments
     Defense Threat Reduction Agency Comments   27
Background
    Defense Threat Reduction Agency. The Defense Threat Reduction Agency
    (DTRA) was established in October 1998 to reduce the threat to the United States
    and its allies from nuclear, biological, and chemical weapons of mass destruction
    (WMD). DTRA operates under the authority, direction, and control of the Under
    Secretary of Defense for Acquisition, Technology, and Logistics. DoD provides
    resources and technical assistance to countries of the former Soviet Union through
    umbrella agreements. The umbrella agreement with Russia, signed on June 7,
    1992, establishes the overall framework under which the U.S. provides assistance
    to Russia.

    Cooperative Threat Reduction Program. Congress established the Cooperative
    Threat Reduction (CTR) Program in December 1991 to assist the countries of the
    former Soviet Union in destroying and reducing the proliferation of nuclear,
    chemical, and biological WMD. Prior to October 1998, the Defense Nuclear
    Agency, which became the Defense Special Weapons Agency in June 1995,
    managed CTR projects. Currently, DTRA manages the day-to-day operations of
    the CTR Program. Between FYs 1992 and 2003, Congress appropriated
    $5.1 billion to DoD, the designated CTR executive agent for the CTR Program.
    As of September 2003, the CTR Program had successfully eliminated over
    6,100 warheads, 100 bombers, 1,800 ballistic missiles (includes silos, launchers,
    and submarines), and 190 nuclear tunnels.

    CTR Integrating Contracts. In September 2001, DTRA awarded five indefinite
    delivery/indefinite quantity (ID/IQ) contracts from a multiple-award solicitation
    to accomplish the CTR Program goals. Task orders awarded under the CTR
    integrating contracts are often for large, complex projects that may include
    various tasks such as the building or improvement of transportation infrastructure
    including roads and railbeds, the construction of buildings, the destruction of
    weapons, and the clean up of the destruction site. In many instances, integrating
    contractors manage and perform oversight of Russian subcontractors, although
    Russian subcontractors handle the technical functions of the projects. The
    awarded contracts cover a 5-year period with a term award incentive based on
    contractor performance for a 5-year contract extension. The estimated dollar
    value of the five multiple-award contracts totals $5 billion. As of April 26, 2004,
    task orders valued at $434.1 million have been awarded using the CTR integrating
    contracts. Table 1 lists the five CTR integrating contractors and their respective
    awarded contract numbers.




                                         1
           Table 1. CTR Integrating Contracts Multiple-Award Contractors

                                Contractor                               Contract No.
     Parsons Delaware, Inc.                                            DTRA01-01-D-0010

     Bechtel National, Inc.                                            DTRA01-01-D-0011

     Washington Group International, Inc.                              DTRA01-01-D-0012

     Raytheon Technical Services Company                               DTRA01-01-D-0013

     Brown & Root Services, A Division of Halliburton International,   DTRA01-01-D-0014
     Inc.


    Before the establishment of the CTR integrating contracts, DTRA awarded
    contracts directly to Russian contractors, which often resulted in an abundance of
    logistical perplexities. The average length of time to award contracts to Russian
    contractors ranged between 10 and 12 months. In addition, manpower and travel
    expenses were extensive. By awarding the CTR integrating contracts, DTRA
    created a dedicated team of technically qualified contractors who would compete
    among themselves for task orders, thereby saving resources and time.

    Task Order Awards. DTRA uses a streamlined approach to select contractors
    for task order awards under the CTR integrating contracts. Under this approach,
    the DTRA program office posts the description of a project on the internet using
    the program application Docushare to allow the five multiple-award contractors
    the opportunity to review the proposed project. DTRA requests that the
    contractors submit top-level work plans showing how the contractor would
    complete the project. The top-level work plans contain rough order of magnitude
    cost estimates for completing the projects. The program office then selects one
    contractor for the task order award, based primarily on the technical solution and
    abilities of the contractor as delineated in the top-level work plan.

Objectives
    Our overall audit objective was to determine whether DTRA contracting
    processes in support of the CTR Program complied with applicable laws and
    regulations. Specifically, we determined whether contracts were awarded and
    managed to ensure the Government received best value in cost and contractor
    performance. We also reviewed the management control program as it related to
    the overall audit objective. See Appendix A for a discussion of the scope and
    methodology and the review of the management control program and Appendix B
    for prior coverage.




                                               2
                    A. Competition of Task Orders
                    DTRA used the multiple-award process to efficiently streamline CTR
                    procurements. However, DTRA awarded three task orders worth over
                    $78 million that did not comply with Federal Acquisition Regulation
                    (FAR) ordering requirements, and DTRA provided multiple-award
                    contractors a probable 10-year contract term, thereby, limiting future
                    competition. DTRA contracting officials used a contractor down-select
                    process1 when issuing task orders for subsequent phases of multiphased
                    projects that did not provide each contractor supporting the CTR Program
                    a fair opportunity to be considered for the task orders and did not cite an
                    exception to the fair opportunity requirement. As a result, task orders may
                    not have been awarded to the best value contractor and continued use of
                    the multiphase ordering process will result in more awards without the
                    benefits of competition. In addition, DTRA is developing a limited
                    competition environment in which a single contractor will have the
                    experience and established infrastructure necessary for performing
                    specific weapons destruction tasks that, in effect, void future competition
                    on task orders for threat reduction efforts.

Criteria
           Multiple-award contracts are regulated by FAR Part 16, “Types of Contract.”
           Ordering procedures are regulated by FAR Subpart 16.505, “Ordering.” The CTR
           integrating contracts are composed of five indefinite delivery/indefinite quantity
           (ID/IQ) contracts. An ID/IQ contract provides for an indefinite quantity, within
           stated limits, of supplies or services during a fixed period. The Government
           issues orders under the contracts for individual requirements. FAR Subpart
           16.504(c)(1) states that contracting officers must, to the maximum extent
           practicable, give preference to making multiple awards of ID/IQ contracts under a
           single solicitation for the same or similar supplies or services. A multiple award
           situation allows qualified contractors the opportunity to compete with each other
           for orders.

           Fair Opportunity. FAR 16.505(b)(1)(i) requires that when a multiple-award task
           order valued over $2,5002 is awarded, contracting officials must provide each
           contractor a fair opportunity to be considered for the award or cite one of four
           exceptions to fair opportunity. The four exceptions are:

                    •    the agency need for the supplies or services is so urgent that providing
                         a fair opportunity would result in unacceptable delays,

1
    The down-select process is a process in which the program office evaluates all the estimated costs and
    summary work plans submitted by multiple contractors that outline the concept and approach to satisfy
    the technical and performance requirements of the Government for a task order. Based on criteria that
    was provided to the contractors, the program office then selects one contractor to receive the task order.
    The down-selected contractor must submit a full technical and cost proposal.
2
    Section 803 of the FY 2002 National Defense Authorization Act, as implemented in Defense FAR
    Supplement 216.505-70, increased the $2,500 amount to $100,000 for services contracts.



                                                        3
            •   only one awardee is capable of providing the supplies or services
                required at the level of quality required because the supplies or
                services ordered are unique or highly specialized,

            •   the order must be issued on a sole-source basis in the interest of
                economy and efficiency as a logical follow-on to an order already
                issued under the contract, provided that all awardees were given a fair
                opportunity to be considered for the original order, and

            •   it is necessary to place an order to satisfy a minimum guarantee.

     Multiphased Approaches. According to FAR Subpart 16.505(b)(1)(iii), the
     contracting officer can use a multiphased approach when developing ordering
     placement procedures:
                . . . when effort required to respond to a potential order may be resource
                intensive (e.g., requirements are complex or need additional
                development), where all contractors are initially considered on price
                considerations (e.g., rough estimates), and other considerations as
                appropriate (e.g., proposed conceptual approach, past performance).
                The contractors most likely to submit the highest value solutions are
                then selected for one-on-one sessions with the Government to increase
                their understanding of the requirements, provide suggestions for
                refining requirements, and discuss risk reduction measures.

     Award Term. The “award term” incentive is modeled after the award fee
     incentive described in FAR Subpart 16.405-2. Instead of rewarding a contractor
     for excellent performance with additional fee, an award-term incentive rewards a
     contractor by extending the contract period of performance without a new
     competition. The Government monitors and evaluates the performance of a
     contractor and if the Government decides that the performance of the contractor
     was excellent, the contractor earns an extension.

Streamlined Selection of Contractors
     To provide fair opportunity to all five multiple-award contractors, DTRA program
     offices post a task order requirements package on Docushare when a new project
     will be awarded. The task order requirements package includes a statement of
     objectives representing the overall scope of the task as currently understood.
     DTRA requests that the CTR integrating contractors submit top-level work plans
     showing how the contractor would complete the project. The contractors, if
     interested in performing the task, provide top-level work plans containing
     executive summaries of their technical and management approaches and rough
     order of magnitude cost estimates for completing the projects.

     At the time that the top-level work plans and rough order of magnitude cost
     estimates are developed, the requirements to perform the projects have not been
     fully developed and may change significantly when statements of work are




                                               4
    developed. Changes due to revised policy guidance, shifts in project priorities, or
    unknown site conditions may cause the resulting task order to differ from what
    was proposed by the contractor.

    The program office selects one contractor for the task order award, referred to as
    the down-select decision, based primarily on the technical solution and abilities of
    the contractor as delineated in the top-level work plan. Government experts work
    with the selected contractor to develop the statement of work. The selected
    contractor is then required to submit full technical and cost proposals, which are
    evaluated in a sole-source environment using an Integrated Product Team (IPT) to
    determine the negotiation position of the Government.


Task Orders for Multiphased Requirements
    DTRA used a multiphased approach for larger requirements that could not be
    fully defined at the time of initial award. When using a multiphased approach,
    DTRA awarded a task order for the initial phase of the project to the contractor
    down-selected on the basis of its top-level work plan and rough order of
    magnitude cost estimate. DTRA included a clause in multiphase projects that
    stated:
               The contractor was down-selected with the expectation of negotiating
               and performing all phases of the task order requirements package
               (TORP). . . . Notwithstanding the Government’s intent to award all
               phases to the selected contractor, the Government reserves the right to
               recompete and/or award any remaining phases to another source, if it is
               determined to be in the Government’s best interest to do so.

    The multiphased approach was developed to help mitigate the risks associated
    with the instability of project requirements that take place in the former Soviet
    Union when projects can be directly affected by foreign Government decisions or
    other unforeseen problems. Many CTR projects do not develop as originally
    envisioned.

    Of 32 task orders reviewed, 4 were for a subsequent phase of a multiphased
    project. DTRA contracting officials awarded three task orders to the contractor
    who performed Phase 1 of the multiphase effort without providing each contractor
    a fair opportunity to be considered or citing one of the exceptions to fair
    opportunity. The fourth task order cited the urgency exception to fair opportunity.
    The estimated value of the three orders was over $78 million. However, the three
    orders represented phases of task order requirements packages worth over
    $262 million. The initial down-select decisions were based on top-level work
    plans including rough order of magnitude cost estimates that were submitted by
    contractors interested in meeting the entire multiphase requirement. The
    contractors understood that the down-selected contractor would be awarded the
    entire effort, but each phase would be on a separate task order. Although only
    four task orders have been awarded using the multiphased approach, this process
    will lead to the majority of CTR task orders being awarded without fair
    opportunity in future years. The FAR does not provide the multiphased approach



                                             5
as a method to make a task order award, therefore, there should be a separate
down-select process for each phase of a DTRA project or an exception to fair
opportunity should be cited.

Multiphased Projects. DTRA contracting officials did not comply with FAR
Part 16 fair opportunity requirements when they awarded the three task orders.
DTRA contracting officials contended that fair opportunity had been provided
based on the top-level work plans for the task order requirements package. The
officials also contended that the FAR provides the contracting officer broad
discretion in developing order placement procedures and that the DTRA
procedures were developed using broad discretion. However, because of the
uncertainty of the CTR requirements and the potential for changes to occur after
the down-select decision, the best value contractor for the task order requirements
package may not be the best value contractor for each individual phase of the
project. Had DTRA provided each contractor a fair opportunity to be considered
for each task order, best value awards would be documented whether significant
changes to the project had occurred.

        Contract DTRA01-01-D-0011, Task Order Requirements
Package 0051. Task order requirements package 0051, “SS-25 Intercontinental
Ballistic Missile Base Elimination,” represented a multiphase project with an
estimated value of $80 million. Task Order No. 8 under contract
DTRA01-01-D-0011, valued at $1.4 million, was issued to Bechtel National,
Incorporated, for Phase I of the requirement to eliminate up to nine Strategic
Rocket Force SS-25 Road Mobile Intercontinental Ballistic Missile bases located
throughout Russia. Phase I established the baseline processes and procedures to
eliminate SS-25 Road Mobile Missile Bases by regiment. Task Order No. 9,
valued at $13.7 million, was issued to Bechtel National, Incorporated, for Phase II
of the requirement. The purpose of Phase II was to eliminate five regiments of
SS-25 Road Mobile Intercontinental Ballistic Missiles. Bechtel National,
Incorporated, was selected to perform Phase II without providing a fair
opportunity to the other CTR contractors or citing one of the fair opportunity
exceptions. DTRA selected Bechtel National, Incorporated, when Task Order
No. 8 was awarded. However, documentation in the contract file for Task Order
No. 9 stated that competition for this order was accomplished during the down-
select process for the entire requirement. The DTRA contracting officials
contended that competition was accomplished for the entire requirement during
the Task Order No. 8 down-select process and that there was no need to cite a fair
opportunity exception when issuing Task Order No. 9.

        Contract DTRA01-01-D-0012, Task Order Requirements
Package 0072. Task order requirements package 0072, “SS-25 Storage Facility
Construction and Burn Stand Renovation,” represented a multiphase project with
an estimated value of $53.4 million. The overall requirement was to build
sufficient missile storage to enable the closing of Strategic Rocket Forces missile
bases hosting the SS-25 Road Mobile Intercontinental Ballistic Missile. Task
Order No. 3 under contract DTRA01-01-D-0012, valued at $3.2 million, was
issued to Washington Group International for Phase I of the requirement, to
determine the site of the missile storage buildings and missile storage
infrastructure and the design of the infrastructure. DTRA contracting officials
awarded Task Order No. 9, valued at $49.5 million, to Washington Group


                                     6
    International for Phase IV of the requirement, which was to provide for the
    construction of storage facilities in Perm, Russia, for SS-24/SS-25 loaded motor
    cases and for renovating and equipping the motor burn facility at Kemerovo,
    Russia. They issued the task order without providing a fair opportunity to the
    other CTR contractors or citing one of the fair opportunity exceptions. DTRA
    selected Washington Group International when Task Order No. 3 was awarded.
    However, the DTRA contracting officials contended that competition was
    accomplished for the entire requirement during the Task Order No. 3 down-select
    process and that there was no need to cite a fair opportunity exception when
    issuing Task Order No. 9.

             Contract DTRA01-01-D-0013, Task Order Requirements
    Package 0071. Task order requirements package 0071, “SS-25 Integrated Missile
    and Launcher Elimination,” represented a multiphase project with an estimated
    value of $128.8 million. The overall requirement was to decommission and
    eliminate SS-25 Intercontinental Ballistic Missiles and their road-mobile
    launchers, demilitarize certain vehicles, and remove solid propellant from missile
    motors. The entire project, consisting of four phases, was awarded to Raytheon
    Technical Services Company based on a top-level work plan and rough order of
    magnitude cost estimate. Task Order No. 8, under contract DTRA01-01-D-0013,
    valued at $3.9 million, was issued to Raytheon Technical Services Company for
    Phase I of the requirement, which was for planning, licensing, and design. DTRA
    contracting officials then awarded Task Order No. 12, valued at $14.9 million, to
    Raytheon for Phase II which was for renovation, including renovation and
    certification for operation of the SS-25 missile disassembly and elimination
    facilities and equipment at Russian corporation, Votkinsky Zavod and at the
    Piban’shur Intercontinental Ballistic Missile dismantlement facility. They
    awarded Task Order No. 12 without providing fair opportunity to the other CTR
    contractors or citing an exception to fair opportunity. The DTRA chief of policy
    stated in an e-mail dated December 24, 2002, that DTRA did not need to cite an
    exception if Phase II was awarded to the same contractor who performed Phase I.
    The e-mail stated, “Phasing does not require an exception to fair opportunity as
    long as we stay with the down-selected contractor. If we shift to another source
    we’re back at square one-early strategy session, etc.”

Award-Term Incentive
    The CTR integrating contracts all included a 5-year award-term incentive. The
    contracts stated that the initial 5-year contract period may be unilaterally extended
    based on contractor performance. If the award-term incentive was exercised, a
    5-year extension would be issued, resulting in a total contract term of 10 years
    from the date of the original award. The FAR, however, discourages the use of
    contracts that last longer than 5 years. FAR 17.204(e) states that the total of the
    basic and option periods of a service contract shall not exceed 5 years unless
    otherwise approved in accordance with agency procedures. Although this does
    not specifically address award-term incentives, it does indicate that contracts
    extending beyond 5 years are not preferred. This 5-year contract limit was made
    mandatory on March 23, 2004, when DoD published an interim rule in the
    Federal Register “Contract Period for Task and Delivery Order Contracts”
    (Defense Federal Acquisition Regulation Supplement Case 2003-D097). The rule


                                          7
    established a 5-year limitation on the contract period for a task order or delivery
    order contract awarded by DoD under the authority of Section 2304a, title 10,
    United States Code. The rule implements Section 843 of the National Defense
    Authorization Act for FY 2004 (Public Law 108-136).

    The award-term incentive restricts competition in the CTR Program. The CTR
    integrating contracts were awarded in 2001. Because the contracts included the
    award-term incentive, the five CTR integrating contractors will likely be the only
    contractors performing work on the CTR Program until 2011. Therefore, the
    Government will be limited to the current five CTR integrating contract
    contractors during the entire 10-year contract term. In addition, the experience
    gained by these contractors and the infrastructure that is established while
    performing the weapons of mass destruction tasks over a 10-year period may
    eliminate other contractors from competing for future contracts. The incumbent
    contractors supporting CTR Program will have a great advantage based on their
    10 years of experience which will be a deterrent to other contractors in competing
    for future CTR Program contracts.

    It is also noteworthy that one of the contractors supporting the CTR Program
    stated that it may soon cease participating in the CTR Program due to lack of
    success of the contractor in the fair opportunity process for the award of task
    orders. DTRA stated that if any of the current CTR integrating contractors drops
    out of the program after the first 5 years, DTRA will continue with the program
    until 2011 with the remaining contractors. Therefore, the CTR Program may have
    fewer than five contractors available to work during the second 5-year term of the
    CTR integrating contracts, further limiting the competitive process.


Fair Opportunity Requirements
    FAR Requirements. DTRA contracting officials did not correctly interpret the
    FAR requirements regarding fair opportunity. The DTRA officials awarded three
    task orders for subsequent phases of requirements without providing each
    contractor a fair opportunity to be considered for the award or citing one of the
    four exceptions to fair opportunity. DTRA contracting officials contended that
    basing a down-select decision on top-level work plans covering the entire project
    satisfied fair opportunity requirements for all subsequent task orders. This
    interpretation was incorrect because the FAR requires that contracting officials
    provide fair opportunity for each individual task order or cite an exception to fair
    opportunity. This position was also maintained by the Government
    Accountability Office (GAO) in a recent report. In GAO Legal Report B-302499,
    “The Federal Acquisition Streamlining Act of 1994 – Fair opportunity procedures
    under multiple award task order contract,” July 21, 2004, the GAO ruled that the
    Federal Acquisition Streamlining Act:
               does not permit an agency to choose between issuing a requirement to a
               pre-selected contractor or opening the requirement to all multiple-
               award contractors. Rather, FASA [the Federal Acquisition Streamlining
               Act] mandates that all contractors be given a fair opportunity to be
               considered for every task order unless a statutory exception applies.




                                            8
    Changes to project requirements occurring after the down-select decision further
    support the need for providing fair opportunity on all task orders involving phased
    projects. Such changes to requirements may render the initial down-select
    decision invalid for the initial task order as well as the subsequent phases of the
    requirement, because the initial down-select decision was potentially based on
    different requirements. Dealing with the former Soviet Union creates much
    uncertainty with project requirements, frequently resulting in changes to
    requirements that can impact the basis on which the down-select decision was
    made.

    For example, Bechtel National, Incorporated, was down-selected to perform all
    the work for task order requirements package 0051, “SS-25 Base Elimination
    Program.” Initially, DTRA contracting strategy was to award a single CTR
    integrating contract task order for the overall project. The integrating contract
    task order was to be structured as a base task order for the effort for the first year
    with annual priced options for the remaining 8 years. A streamlined competition
    was held among the CTR integrating contractors resulting in Bechtel National,
    Incorporated, being down-selected to perform the entire project. Prior to the
    initiation of the task order, the Russians decided to change the requirement from
    an SS-25 base-by-base elimination to an SS-25 regiment-by-regiment elimination.
    Each base consists of two to five regiments. Eliminating a regiment of a Russian
    Federation military unit consists of the infrastructure and fixed structures for nine
    SS-25 missiles and launchers, along with the transportation of the missiles off-site
    to a storage location and the launchers to an elimination facility. As a result of
    these changes, DTRA officials decided to execute task order requirements
    package 0051 in phases with separate task orders issued for each phase. The
    DTRA officials acknowledged that the regiment-by-regiment approach might
    extend the project until 2016 and add some cost to the overall project by requiring
    the contractor to return to a base several times. DTRA contracting officials did
    not think the change was significant to the scope of the project, and they felt that
    the down-select decision would not have been altered. Although this may be the
    case, the changes to the requirement seem significant enough to have warranted
    providing the other CTR contractors a fair opportunity to provide a more efficient
    solution to the requirement. At a minimum, the changed requirements should
    have warranted providing fair opportunity on subsequent phased task orders
    unless an exception to fair opportunity was cited and justified.

Decision to Use Award-Term Incentives
    DTRA contracting officials stated that they included the 5-year award-term
    incentive in the CTR integrating contracts to provide incentives to enhance
    contractor performance. However, as previously stated, FAR 17.204 discouraged
    the use of contracts for periods over 5 years, and the March 23, 2004, interim rule
    in the Federal Register now mandates that contract periods will be limited to
    5 years. In addition, the award-term incentive was to be exercised based on the
    CTR integrating contract contractors’ overall performances. Therefore, the
    award-term incentive did not provide significant motivation for exceptional
    contractor performance on any particular task.


                                          9
Conclusions
    Fair Opportunity. The DTRA practice of awarding task orders for subsequent
    phases of a project without providing each contractor supporting the CTR
    Program a fair opportunity to be considered for the task orders and not citing an
    exception to fair opportunity requirements creates the potential that task orders
    will not be awarded to the best-value contractor. It is possible that the contractor
    best suited to perform subsequent phases of a requirement is not the same
    contractor who was best suited to perform Phase I. Therefore, to ensure that the
    Government is receiving best value, DTRA should either provide fair opportunity
    for each task order awarded or should cite and justify one of the fair opportunity
    exceptions, if applicable, when awarding task orders for subsequent phases of a
    requirement.

    Award-Term Incentive. The decision of the DTRA contracting officials to use
    the award-term incentive in the CTR integrating contracts precludes the
    Government from obtaining the competitive benefits of having additional
    contractors available to work during the second 5-year term of the contracts.
    Only the current CTR integrating contract contractors will be able to work on the
    CTR Program until 2011. The Government will not be able to obtain potential
    cost savings and other benefits available from additional competition.

    The use of the award-term incentive creates the potential for a future sole-source
    environment in the CTR Program. Prior to the award of the current CTR
    integrating contracts, 55 other contractors expressed interest in the program. As
    more time passes with the current CTR integrating contracts, the contractors
    working on the CTR Program become the only contractors with the experience
    and infrastructure to perform weapons destruction tasks in the former Soviet
    Union and it becomes more difficult for other contractors to compete with them,
    ultimately eliminating other contractors from future competition. For these
    reasons, and the fact that the new interim rule in the Federal Register limits
    contract periods of performance to a maximum of 5 years, we recommend that
    DTRA not include 5-year award-term incentives in future multiple award
    procurements. DTRA should award new contracts using full-and-open
    competition no less often than every 5 years.


Management Comments on the Finding
    Management Comments. The Acting Director, Defense Threat Reduction
    Agency was pleased that we found that DTRA effectively used the multiple-
    award process to efficiently streamline CTR Program procurements. The acting
    director believes that competing entire projects among all the CTR integrating
    contractors, then systematically and logically issuing separate orders to the
    successful contractor for integral project phases represents a prudent business
    approach by DTRA. The DTRA process mitigates project risk by requiring
    former Soviet Union subcontractors to complete their portion of each project prior
    to moving to the next phase of the project and providing an exit strategy from a
    project if problems arise. Although noted in the draft report, CTR integrating


                                         10
    contracts award-term provisions (which were included as an incentive for the
    contractors) were allowable at the time of the CTR integrating contracts awards
    and were not in violation of the FAR.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Director, Defense Threat Reduction Agency:

           1. Either provide all contractors working under the Cooperative
    Threat Reduction integrating contract a fair opportunity to be considered for
    the award of all task orders issued under the Cooperative Threat Reduction
    integrating contracts or document the rational for an exception to fair
    opportunity, if applicable, including task orders issued for subsequent phases
    of multi phased projects.

    Management Comments. The Acting Director, Defense Threat Reduction
    Agency concurred. The acting director stated that although the DTRA down-
    select process was developed under the broad discretion granted to contracting
    officers by the FAR Part 16.5, DTRA acknowledges that the FAR
    Subpart 16.505(b)(2) requires that, for all orders over $2,500, every multiple
    Indefinite Delivery/Indefinite Quantity awardee must be given a fair opportunity
    to compete or an exception to fair opportunity must be documented. DTRA will
    either compete or document the rationale for the exception for all future
    Cooperative Threat Reduction Integrating Contractor task orders.

          2. Award all future Cooperative Threat Reduction procurement
    contracts with performance periods that do not restrict competition.

    Management Comments. The Acting Director, Defense Threat Reduction
    Agency agreed that the award-term provisions contained in the Cooperative
    Threat Reduction Integrating Contracts contributed to limiting the competitive
    environment, however, the acting director stated that she did not consider issues
    on the limits of competition as serious as the draft report suggested. The acting
    director stated that DTRA retains the right to award Cooperative Threat
    Reduction projects to other contractors if circumstances warrant and have done so
    when such awards were in the best interest of the Government.

    Audit Response. A combination of not competing multiphase projects and
    excessively long award-term provisions would create a noncompetitive
    environment. However, actions taken by DTRA in response to
    Recommendation 1. and recent changes in the FAR have alleviated our concerns.
    Defense Threat Reduction Agency comments are considered responsive. Further
    comments by DTRA are not required.




                                       11
           B. Contract Documentation
           With the exception of providing fair opportunity on multiphase
           requirements, DTRA generally complied with applicable laws and
           regulations in awarding task orders under the CTR integrating contracts.
           Although the contracting process was well documented in procurement
           negotiation memorandums, poor management controls on contract
           documentation that cut across DTRA directorates resulted in data and
           documentation discrepancies for 26 of 32 contract actions reviewed.
           Specifically, of the 32 contract task orders reviewed:

                   •   2 contained incorrect accounting and appropriation data;

                   •   11 contained incomplete technical evaluations regarding
                       contractor proposed labor hours;

                   •   4 contained incomplete documentation regarding subcontractor
                       costs, indirect rates, or other direct costs; and

                   •   20 lacked justification for the type of contract used.

           DTRA needs to improve management controls to better ensure that all
           contracts have correct accounting and appropriation data and contain
           adequate documentation. If controls are not improved, contract
           accounting and appropriation data will not be properly accounted for and
           decisions of the contracting officers cannot be substantiated.

Contracting Requirements
    FAR 15.404(e)(2) states that at a minimum, the technical analysis should examine
    the types and quantities of material proposed and the need for the type and
    quantities of labor hours and the labor mix.

    FAR 16.103(d) states that each contract file shall include documentation to show
    why the particular contract type was selected.

    FAR 16.505(b)(1)(ii)(e) states that the contracting officer must consider price or
    cost under each order as one of the factors in the selection decision.

Contract Task Order Problems
    Of the 32 contract task orders reviewed in support of the CTR Program, 26 had at
    least one documentation-related problem. The following table summarizes
    problems found during the audit. Appendix C provides the contract numbers of
    the contracts with documentation related problems.




                                         12
                                    Table 2. Summary of Problems Found

                           Problem Areas                        Occurrences/Universe            Percent
            Incorrect Accounting and Appropriation                        2/32                 6
            Data
            Inadequate Documentation Supporting                           15/32                47
            Price Reasonableness Decision
            Inadequate Explanation of the Type of                         20/32                63
            Contract Used


           Verification of Accounting and Appropriation Data. We identified two task
           orders awarded for work to be performed in Iraq that incorrectly included the
           accounting and appropriation data for work to be performed in the former Soviet
           Union. The orders were Task Order No. 10 of contract DTRA01-01-D-0013,
           valued at $1.2 million, and Task Order No. 4 of contract DTRA01-01-D-0014,
           valued at $1.4 million. The Office of the Secretary of Defense
           (Comptroller)/Chief Financial Officer confirmed that the appropriation data cited
           on the task order award were restricted to work performed in the former Soviet
           Union. When notified, DTRA comptroller officials immediately modified the
           task orders to replace the incorrect accounting and appropriation data. DTRA
           comptroller officials noted that there were no control procedures for the DTRA
           Contracting Division to verify accounting and appropriation data on task orders
           with the DTRA Comptroller Division.

           Contract Documentation. Of 32 contract actions reviewed, 15 documented and
           supported the basis for determining that prices negotiated during the IPT process
           were fair and reasonable, 15 did not have supportive documentation, and 2 were
           for undefinitized contract actions3. For 11 of the 15 task orders without
           supportive documentation, technical evaluations did not address contractor
           proposed labor hours. The other four task orders did not discuss the subcontractor
           costs, concerns raised by the technical evaluation for contractor proposed labor
           hours, indirect rates, and other direct costs. Several previous Inspector General,
           DoD, audits have reported on similar problems with contract documentation. The
           two undefinitized contract actions were documented in accordance with the
           Defense FAR Supplement.

           Price negotiation memorandums were usually detailed and showed that prime and
           subcontractor proposed costs including labor rates, material costs, and other costs
           had been reviewed. However, contracting officers did not detail the need for
           proposed labor hours. The technical evaluations that the contracting officers
           depended on for justification, routinely contained statements that proposed labor
           hours were reasonable. However, there was no basis for these determinations.
           Without an explanation of how labor hours were determined reasonable, we were
           unable to determine whether rationale of the contracting officer for determining
3
    An undefinitized contract action is any contract action where the contract terms, specifications, or price
    are not agreed upon before performance is begun under the action.



                                                        13
    that prices paid were fair and reasonable. For example, for Task Order No. 1 of
    contract DTRA01-01-D-0013, the price negotiation memorandum states that the
    technical evaluation of the project manager included a review and approval of the
    number and type of labor hours proposed by the contractor in the technical
    proposal. However, the technical evaluation does not mention the number of
    labor hours proposed by the contractor. There were no official command
    directives or instructions detailing the information required from program offices.
    Normally, the program office is responsible for producing technical evaluations
    that contain a basis for the number of labor hours proposed.

    Selection of Contract Type. For 20 task orders reviewed, contracting officials
    did not justify why the contract type selected was appropriate even when cost-
    type contracts were used. Although some of the task order files included a brief
    explanation of why a certain contract type was required, other task order files did
    not. In some instances, we questioned whether a cost-type contract was
    appropriate. For example, contracting officials selected a cost-plus-fixed-fee
    contract type for Task Order No. 8 of contract DTRA01-01-D-0011. There was
    no explanation in the task order file describing why this type of contract was
    selected. However, the contract price negotiation memorandum stated that
    requirements for Task Order No. 8 were well defined and that an independent
    Government cost estimate had not been developed primarily because of the
    DTRA Program Manager’s familiarity with another Phase I requirement for
    similar services. Therefore, we could not determine whether the proper type of
    contract was selected and the Government was receiving the best value.


Defense Threat Reduction Agency Internal Controls
    For DTRA to better ensure that all contracts have correct accounting and
    appropriation data and adequate documentation, they need to improve
    management controls.

    Business Processes and Associated Responsibilities Guidance. In
    October 2003, DTRA developed the draft CTR Integrating Contract Business
    Processes and Associated Responsibilities guidance document that describes the
    process followed for initiating and coordinating Cooperative Threat procurement
    actions with emphasis on CTR integrating contract task order processes. As a
    command directive, this document can be used across the different DTRA
    business divisions and other directorates to strengthen internal controls within the
    Contracting Division.

            Accounting and Appropriation Data Controls. DTRA comptroller
    officials review accounting and appropriation data when they receive a copy of
    awarded contract actions; however, internal control procedures are not in place to
    verify the data is correct before the contract action is signed. In Task Order
    No. 10 of contract DTRA01-01-D-0013 and Task Order No. 4 of contract
    DTRA01-01-D-0014, neither the comptroller or the contracting officials had an
    explanation why the wrong accounting and appropriation data had not been
    discovered before the contract action was signed by the contracting officer.
    Internal control procedures can alleviate potential for unintentional
    noncompliance with financial and regulatory requirements. Comptroller


                                         14
personnel should review all contract actions that obligate funds to ensure that
correct accounting and appropriation data are used. The draft business processes
guidance document does not mention controls for reviewing accounting and
appropriation data, but this type of document could serve as an excellent vehicle
for future controls.

        Justification of Labor Hours. Technical evaluators are required by the
FAR to explain the basis used for determining that proposed labor hours are
reasonable. The draft business processes guidance document did not specifically
state any reference to providing documentation in the contract files to justify
contractor proposed labor hours. However, the guidance noted that regardless of
the proposal method, full proposal or Integrated Product Team (IPT) approach, a
government evaluation of the proposal must be properly documented. According
to the guidance, the project manager leads the effort in the proposal evaluation.
The project manager is responsible for the technical evaluation and ensures that
the management and technical approaches of the contractor meet the requirements
of the statement of objectives or statement of work. In 11 of the task orders we
reviewed, the technical evaluations did not provide sufficient analysis of the
proposed contractor labor hours. In the draft business processes guidance
document, a draft format of a new price negotiation memorandum included a
review of the number of labor hours and the labor hour mix as part of the analysis
to determine fair and reasonable prices. DTRA management needs to ensure that
program offices are aware of this requirement and contracting offices need to
ensure the requirements are met before placing orders on CTR integrating
contracts.

        Contract Type Documentation. The FAR notes that each contract file
must include documentation as to why a particular contract type was selected.
According to the draft business processes guidance document, DTRA conducts an
early strategy session in which the project manager presents an overview of the
planned task order. If the task order supports the CTR Program, a contract type
decision is made to award either a firm-fixed-price, cost-plus-fixed-fee, or cost-
plus-award-fee contract. DTRA officials prepare a Memorandum for Record on
the early strategy session proceedings. In some of the task order files reviewed,
DTRA officials discussed in the Memorandum for Record the reasons why a
particular type of contract was selected. However, in 20 orders reviewed there
was no explanation in the contract task order files. Documentation of the early
strategy session is an appropriate vehicle for DTRA contracting officials to
document the justification of the contract type selected for task orders. DTRA
contracting officers need to better document and support their rationale for
choosing cost reimbursable contract types.

Management Controls. Although all DTRA directorates including the CTR
Directorate and the Iraq Weapons Elimination Directorate are listed as assessable
units in the DTRA management control program, the program is inadequate in
addressing the problems identified during the audit because controls on
multiple-award contracts are necessary that cut across directorates. In addition,
DTRA management controls for verifying accounting and appropriation data were




                                    15
    not adequate. Adequate management controls will increase the likelihood that the
    Government is receiving the best value for its money and is conforming to
    financial statutory and regulatory requirements.


Conclusion
    In general, DTRA is documenting and supporting its business decisions when
    awarding task orders under the multiple-award CTR integrating contracts.
    However, DTRA needs to focus more attention on internal management controls.
    Accounting and appropriation data on contract actions must be accurate and
    documentation of contract actions must meet all FAR requirements. Management
    controls that are supported by senior managers can achieve these goals.

Management Comments on the Finding
    Management Comments. The Acting Director, Defense Threat Reduction
    Agency concurred with the finding. The acting director stated that DTRA has
    strengthened internal controls by placing additional oversight responsibility in the
    majority of directorates through the creation of a Senior Business Officer. DTRA
    also employs extensive and independent reviews by the Contracts Policy
    Oversight and Career Management Branch and the office of the General Counsel
    prior to the award of a task order to ensure compliance with all policies and
    regulations.


Recommendations
    B. We recommend that the Director of the Defense Threat Reduction
    Agency establish and support management controls by completing and
    implementing the Cooperative Threat Reduction Integrating Contract
    Business Processes and Associated Responsibilities guidance document to
    direct:

           1. Accounting and appropriation data is correct on all contract
    actions.

           2. Program offices provide the Contracting Division technical
    evaluations that provide a basis for required labor hours on contract actions.

           3. Contracting officers document the reasons for the selection of a
    particular contract type.

    Management Comments. The Acting Director, Defense Threat Reduction
    Agency concurred with the recommendations and stated that the Cooperative
    Threat Reduction Integrating Contract Business Processes and Associated
    Responsibilities guidance document will be finalized and implemented over the
    next several months. The acting director stated that focusing more attention on


                                         16
improving documentation will help to avoid inclusion of erroneous accounting
and appropriation data on contract actions. The acting director also concurred
with the need for DTRA to focus more attention on improving documentation to
ensure that negotiated labor hours, subcontractor pricing, indirect rates, and other
direct costs are fully supported and explained. The acting director concurred with
the need to focus additional attention on documenting the justification for the
contract type selection.




                                     17
Appendix A. Scope and Methodology
           This audit was performed as a self initiated risk benefit assessment. Our review
           focused on task orders awarded under DTRA Cooperative Threat Reduction
           integrating contracts in support of the CTR Program. DTRA awarded the
           contracts on September 7, 2001. The contract actions reviewed covered FYs 2002
           through 2003. We examined the individual task orders, top-level work plans,
           rough orders of magnitude, statements of work, Defense Contract Audit Agency
           reviews, price negotiation memorandums, technical evaluations, source selection
           decisions, and other miscellaneous correspondence. Our review covered five
           ID/IQ contracts with a combined estimated value of $5 billion and 32 task orders
           with an estimated value* of $415.8 million. Our audit included the following
           steps:

                   1. The first step determined whether DTRA contracting officers provided
           each multiple-award contractor a fair opportunity to be considered when issuing
           task orders and whether contracting officers properly justified exceptions to the
           fair opportunity process.

                  2. The second step determined whether DTRA contracting officers
           adequately documented and supported price reasonableness decisions. We
           reviewed price negotiation memorandums and documents supporting the
           information contained in the price negotiation memorandums.

                   3. The third step determined whether DTRA contracting officers justified
           the use of the contract type selected when issuing task orders.

           We interviewed DTRA contracting and program offices, including the DTRA
           acquisition executive and the head of the contracting activity. We also met with
           contractor officials and an official from the Office of the Secretary of Defense
           (Comptroller)/Chief Financial Officer. We performed this audit from
           August 2003 through May 2004 in accordance with generally accepted
           government auditing standards.

           Limitations. We did not determine whether contracting officials performed
           adequate surveillance on cost-reimbursement contracts. It was determined that
           time constraints did not allow for a thorough examination of tasks being
           performed in the former Soviet Union.

           Use of Computer-Processed Data. We did not use computer-processed data to
           perform this audit.

           GAO High-Risk Area. GAO has identified several high-risk areas in DoD. This
           report provides coverage of the high-risk area to “Improve processes and controls
           to reduce contract risk.”

*
    Estimated value represents the amount that contracting officials estimate as the value of the entire contract
    including all option years. If the term estimated value is not used, the dollar value will refer to the value
    of contract orders in effect at the time of the audit.



                                                        18
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    management control procedures related to task orders awarded under the CTR
    integrating multiple-award contracts in support of the CTR Program. We
    specifically reviewed the fair opportunity process and the accounting and
    appropriation data used. We reviewed management’s self-evaluation applicable
    to these areas.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DTRA, as defined by DoD Instruction 5010.40. DTRA
    management controls for task orders awarded under the CTR integrating contracts
    in support of the CTR Program were not adequate for ensuring that contractors
    were provided a fair opportunity to be considered. Recommendation A.1., if
    implemented, will improve the process for providing contractors a fair
    opportunity to be considered. Also, DTRA management controls for verifying
    accounting and appropriation codes were not adequate. Recommendations B.1.
    through B.3., if implemented, will improve overall DTRA management controls
    for task orders awarded under multiple contracts. A copy of the report will be
    provided to the senior official responsible for management controls in the Defense
    Threat Reduction Agency.

    Adequacy of Management’s Self-Evaluation. DTRA officials did not establish
    management controls for multiple-award contracts that cut across directorates
    and, therefore, did not report on the material management control weaknesses
    identified by the audit.




                                        19
Appendix B. Prior Coverage
    During the last 5 years, GAO and the Inspector General of the Department of
    Defense (IG DoD) have issued 13 reports discussing the CTR Program.
    Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.


GAO
    GAO Legal Report No. B-302499, “The Federal Acquisition Streamlining Act of
    1994 – Fair opportunity procedures under multiple award task order contract,”
    July 21, 2004

    GAO Report No. GAO-03-1008R, “FY 2004 Annual Report on the Cooperative
    Threat Reduction Program,” July 18, 2003

    GAO Report No. GAO-03-627R, “FY 2003 Annual Report on the Cooperative
    Threat Reduction Program,” April 8, 2003

    GAO Report No. GAO-03-526T, “Weapons of Mass Destruction: Observations
    on U.S. Threat Reduction and Nonproliferation Programs in Russia,”
    March 4, 2003

    GAO Report No. GAO-03-341R, “Cooperative Threat Reduction Program
    Annual Report,” December 2, 2002

    GAO Report No. GAO-01-694, “Cooperative Threat Reduction: DoD Has
    Adequate Oversight of Assistance, but Procedural Limitations Remain,”
    June 19, 2001

IG DoD
    IG DoD Report No. D-2004-050, “Management Structure of the Cooperative
    Threat Reduction Program,” February 5, 2004

    IG DoD Report No. D-2004-039, “Cooperative Threat Reduction Construction
    Projects,” December 18, 2003

    IG DoD Report No. D-2003-131, “Cooperative Threat Reduction Program: Solid
    Rocket Motor Disposition Facility Project,” September 11, 2003

    IG DoD Report No. D-2002-154, “Cooperative Threat Reduction Program Liquid
    Propellant Disposition Project,” September 30, 2002

    IG DoD Report No. D-2002-033, “Management Costs Associated With the
    Defense Enterprise Fund,” December 31, 2001


                                       20
IG DoD (cont’d)
    IG DoD Report No. D-2001-074, “Cooperative Threat Reduction Program,”
    March 9, 2001

    IG DoD Report No. D-2000-176, “Defense Enterprise Fund,” August 15, 2000




                                     21
Appendix C. Contract Task Order Problems
             Table C-1. Task Orders with Inadequate Documentation

    Item Number        Contract/Task Order Number        Contract Type
        1               DTRA01-01-D-0011/0002        Cost-Plus-Fixed-Fee
        2               DTRA01-01-D-0011/0003        Firm-Fixed-Price
        3               DTRA01-01-D-0011/0004        Cost-Plus-Fixed-Fee
        4               DTRA01-01-D-0011/0006        Cost-Plus-Fixed-Price
        5               DTRA01-01-D-0011/0007        Cost-Plus-Award-Fee
        6               DTRA01-01-D-0012/0002        Cost-Plus-Fixed-Fee
        7               DTRA01-01-D-0012/0004        Cost-Plus-Award-Fee
        8               DTRA01-01-D-0012/0007        Cost-Plus-Fixed-Fee
        9               DTRA01-01-D-0012/0008        Cost-Plus-Fixed-Fee
        10              DTRA01-01-D-0013/0001        Cost-Plus-Fixed-Fee
        11              DTRA01-01-D-0013/0002        Cost-Plus-Award-Fee
        12              DTRA01-01-D-0013/0006        Cost-Plus-Fixed-Fee
        13              DTRA01-01-D-0013/0009        Cost-Plus-Award-Fee
        14              DTRA01-01-D-0013/0013        Cost-Plus-Award-Fee
                                                     Cost-Plus-Fixed-
        15              DTRA01-01-D-0014/0001
                                                     Fee/Firm-Fixed-Price




                                    22
 Table C-2. Task Orders with Inadequate Explanation of Type Contract
                                Used

Item Number       Contract/Task Order Number         Contract Type
    1              DTRA01-01-D-0010/0001          Cost-Plus-Award-Fee
    2              DTRA01-01-D-0010/0002          Cost-Plus-Award-Fee
    3              DTRA01-01-D-0011/0004           Cost-Plus-Fixed-Fee
    4              DTRA01-01-D-0011/0006           Cost-Plus-Fixed-Fee
    5              DTRA01-01-D-0011/0008           Cost-Plus-Fixed-Fee
    6              DTRA01-01-D-0011/0009          Cost-Plus-Award-Fee
    7              DTRA01-01-D-0012/0002           Cost-Plus-Fixed-Fee
    8              DTRA01-01-D-0012/0005           Cost-Plus-Fixed-Fee
    9              DTRA01-01-D-0012/0007           Cost-Plus-Fixed-Fee
    10             DTRA01-01-D-0012/0008           Cost-Plus-Fixed-Fee
    11             DTRA01-01-D-0012/0009           Cost-Plus-Fixed-Fee
    12             DTRA01-01-D-0013/0001           Cost-Plus-Fixed-Fee
    13             DTRA01-01-D-0013/0002          Cost-Plus-Award-Fee
    14             DTRA01-01-D-0013/0005           Cost-Plus-Fixed-Fee
    15             DTRA01-01-D-0013/0006           Cost-Plus-Fixed-Fee
    16             DTRA01-01-D-0013/0008           Cost-Plus-Fixed-Fee
    17             DTRA01-01-D-0013/0009          Cost-Plus-Award-Fee
    18             DTRA01-01-D-0013/0010           Cost-Plus-Fixed-Fee
    19             DTRA01-01-D-0013/0012           Cost-Plus-Fixed-Fee
    20             DTRA01-01-D-0014/0004           Cost-Plus-Fixed-Fee




                               23
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Director, Program Analysis and Evaluation
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
    Programs)
    Deputy Assistant to the Secretary of Defense (Chemical Demilitarization and Threat
        Reduction)
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense for Policy
  Deputy Under Secretary of Defense (Technology Security Policy and Counter-
    Proliferation)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Threat Reduction Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget


                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations
House Subcommittee on International Terrorism, Nonproliferation and Human Rights,
  Committee on International Relations




                                        25
Defense Threat Reduction Agency Comments




                    27
28
29
Final Report
 Reference




Added,
see
Appendix C
Page 23.




               30
31
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.

Terry L. McKinney
Timothy E. Moore
Robert E. Bender
Steven I. Case
Cheryl L. Snyder
Karen A. Ulatowski
David P. Goodykoontz
Kevin G. Burrowes
Breon E. Dehoux
Theresa L. Tameris
